App. 1
APPENDIX A
227 A.3d 1079
Supreme Court of Delaware
Dakai CHAVIS, Defendant Below, Appellant,
V.
STATE of Delaware, Plaintiff Below, Appellee.
No. 520, 2018
|
Submitted: January 15, 2020
|
Decided: April 7, 2020
Attorneys and Law Firms
Nichole M. Walker, Esquire (argued), John K. Kirk, IV,
Esquire and Lisa M. Schwind, Esquire, Wilmington,
Delaware, for Appellant.
Brian L. Arban, Esquire Department of Justice, Wilmington, Delaware, Appellee.
Before SEITZ, Chief Justice; VALIHURA, VAUGHN,
TRAYNOR, and MONTGOMERY-REEVES, Justices.
Opinion
TRAYNOR, Justice.
In this case, we address the scope of a criminal defendant’s Confrontation Clause rights when the prosecution offers forensic-testing results produced by an
analytical process involving multiple analysts.

App. 2
A New Castle County grand jury indicted Dakai
Chavis on four counts of trespassing with the intent to
peer or peep, four counts of burglary in the second degree, three counts of burglary in the second degree, and
one count of theft of a firearm. A Superior Court jury
acquitted Chavis on all but one of the charges, finding
him guilty of the second degree burglary of an apartment at 61 Fairway Road in Newark, Delaware. At that
address, unlike the other residences identified in the
indictment, the police had obtained a DNA sample
from a bedroom window. The police sent that sample to
an out-of-state laboratory for analysis, and when they
later arrested Chavis and swabbed his mouth for DNA,
they sent that sample to the same lab. According to one
of the lab’s analysts, the evidentiary sample taken
from the bedroom window at the burglary scene
matched the reference sample taken from Chavis.
It is undisputed that several analysts from the lab
handled and performed steps in the analytical process
on both samples. Even so, before the trial, the State
moved in limine for an order declaring that the out-ofstate laboratory’s DNA findings would be “admissible
via the testimony of [the lead analyst], and that no one
else from [the laboratory] needs to appear for trial.”1
Chavis opposed the motion, citing the Sixth Amendment’s Confrontation Clause and 10 Del. C. § 4331 in
support of his claim that all the analysts “who physically manipulated the [DNA] sample . . . [should] be required to appear at trial if those samples [were] to be
1

App. to Opening Br. at A38.

App. 3
in any way referenced at trial.”2 The Superior Court
agreed with the State and granted its motion.
At the end of the State’s presentation of the evidence at trial, Chavis made a motion for judgment of
acquittal, which the Superior Court denied. As mentioned, the jury convicted Chavis of one count of second-degree burglary and acquitted him of the
remaining counts. The Superior Court sentenced
Chavis to four years of non-suspended Level V imprisonment, and Chavis appealed.
Chavis raises three arguments on appeal. First, he
argues that the introduction of the DNA evidence violated his Confrontation Clause rights because the
State did not present all of the analysts who conducted
the DNA analysis. Second, Chavis contends that several Delaware statutes that pertain to DNA evidence
in other contexts compel the conclusion that the DNA
evidence was not admissible under D.R.E. 901 because
the evidence had not been properly authenticated.
Third, Chavis makes an insufficiency-of-the-evidence
claim based on our holding in Monroe v. State.3
The practice of testing forensic evidence at out-ofstate laboratories whose analysts are, as a practical
matter, beyond the reach of a Delaware subpoena4
2

Id. at A59.
652 A.2d 560 (Del. 1995).
4
The Court is mindful that Delaware’s version of the Uniform Law to Secure the Attendance of Witnesses from Without a
State in Criminal Proceedings, 11 Del. C. §§ 3521 et seq., envisions a procedure by which the appearance of a material out-of3

App. 4
implicates important constitutional and evidentiary
considerations. In this case, for instance, the testifying
analyst’s report and testimony relied upon her conclusion—not based on personal knowledge, but on her review of the nontestifying analysts’ recorded entries in
the lab’s case files—that the nontestifying analysts
performed their work properly. But even though there
was no showing that the nontestifying analysts were
unavailable or that practical considerations precluded
their appearance, the Superior Court excused their absence, and Chavis was unable to test the testifying analyst’s conclusion regarding the quality of the other
analysts’ work. Nevertheless, we cannot conclude on
the record before us, which does not include the lab’s
case files, that the out-of-court statements by witnesses who did not appear at trial were “testimonial”
within the meaning of controlling United States Supreme Court precedent. Therefore, we reject Chavis’s
claim that his Confrontation Clause rights were violated. And because Chavis’s claim that the DNA evidence was not properly authenticated and his
argument based on Monroe lack merit, we affirm.

state witness in a prosecution pending in the State might be compelled. But that process is significantly more cumbersome and
costly—oftentimes prohibitively so—than the issuance and service of a subpoena for an in-state witness.

App. 5
I.

BACKGROUND

A. The Burglary Complaints and Resulting Investigation
In the fall of 2016, a spate of night-time burglary
and peeping-tom complaints from the residents of two
apartment complexes—Hunter’s Crossing and Harbor
Club—prompted the New Castle County Police Department (“NCCPD”) to install motion-sensitive surveillance cameras in the affected areas. When the
cameras detected motion, they would take one photograph per second for the next ten seconds. This generated approximately 40,000 images, which were
painstakingly reviewed by the chief investigating officer, Detective Kevin Mackie. Among the myriad images, Detective Mackie noticed a black male with facial
hair, wearing camouflage pants, and a “pilot-style”5
jacket. The frequent appearance of this individual in
surveillance photos taken at or near the times when
police had received the residents’ complaints, “always
late at night . . . [and] never . . . during the daytime
hours,”6 piqued the detective’s suspicion that this
bearded man was the culprit.
Of the nearly twenty incidents under investigation, one is of particular relevance in this appeal. On
the evening of November 11-12, 2016, a ground-floor
apartment at 61 Fairway Road in the Hunter’s Crossing apartment complex was burgled. During the investigation, the police concluded that the burglar entered
5
6

App. to Answering Br. at B7-8.
Id.

App. 6
through one of the bedroom windows. Nothing was stolen, however, and the evidence-detection specialist
called to the scene was unable to recover any usable
fingerprints from the point of entry. But the specialist
also swabbed the exterior of the window for DNA evidence and, in due course, the swabs were sent to Bode
Cellmark Forensics, a private laboratory in Lorton,
Virginia that specializes in forensic DNA testing.7 The
testing of this DNA sample and the manner in which
the testing results were presented at Chavis’s trial are
at the heart of this appeal and will be discussed in detail below.
Through a chance encounter on November 20,
2016 between two NCCPD officers and Chavis in the
vicinity of the Harbor Club Apartments, Chavis was
developed as a suspect in the burglaries and peepingtom cases. Armed with the identification provided by
the two officers, both of whom were virtually certain
that the person they spoke with on November 20—
identified as Dakai Chavis—was the same person in
7

Sergeant Thomas Orzechowski, a supervisor of NCCPD’s
evidence-detection unit, explained that the department “started a
project many years ago . . . specifically geared toward DNA related to property crimes,” under which it secured “a contract with
a private lab, Bode Forensics, [which] processes the majority of
[the department’s] property crimes and thefts.” Id. at B35. The
record does not disclose why NCCPD does not use the State’s Division of Forensic Sciences, which has a DNA Unit that conducts
forensic “DNA testing of biological materials associated with official investigations[,] including . . . [investigations of ] property
crimes.” DNA Unit, Delaware Division of Forensic Science,
https://forensics.delaware.gov/contentFolder/section-index.shtml?
dc=DNAUnit (last visited Mar. 17, 2020).

App. 7
the photographs generated by the surveillance cameras from Harbor Club Apartments, Detective Mackie
secured search warrants for Chavis’s residence and automobile, and to secure a sample of his DNA.8
When Mackie executed the warrants on January
4, 2016, he located numerous pieces of clothing, including a “pilot-style” jacket, camouflage pants, and Nike
sneakers, all of which were similar to what the suspect
wore in many of the surveillance-camera photographs.
Mackie also seized a cellphone from the master bedroom at Chavis’s residence and later secured another
search warrant so that he could search the cellphone’s
contents. That search disclosed that someone had used
the phone to watch YouTube videos about AR15 rifles
on the same day that an AR15 rifle had been stolen in
one of the Hunter’s Crossing burglaries. Cell tower
data also revealed that the phone taken from Chavis’s
residence was in close proximity to Hunter’s Crossing
during the early morning hours when burglaries were
reported there.
During the search of Chavis’s residence, Detective
Mackie also obtained a DNA sample from Chavis, using a collection method known as buccal swabbing, by
scraping the inside of Chavis’s cheeks with a Q-tip-like
swab to collect skin cells. That sample—like the swabs
from the November 11-12 Hunter’s Crossing crime
8

The search warrants were not made part of the Superior
Court record so we rely on the State’s undisputed representations
and Detective Mackie’s testimony that the NCCPD secured multiple warrants under one of which Detective Mackie obtained the
reference DNA sample from Chavis.

App. 8
scene—were sent to Bode Cellmark Forensics. At trial,
an analyst from Bode, Sarah Siddons, testified that
Chavis’s DNA sample matched the crime-scene sample. Because that testimony gives rise to Chavis’s principal complaint on appeal, we now fix our attention on
the manner in which Bode tested the samples, how Siddons reached her ultimate conclusions, and how this
critical evidence was presented to the jury.
B. The DNA Testing
The manner in which the investigating officers collected the crime-scene DNA sample and Chavis’s reference sample and delivered those samples to Bode is
not at issue here. It is sufficient for our purposes to
note that an evidence-detection specialist used a DNA
collection kit supplied by Bode to process the suspected
point of entry (a window) at the crime scene, wiping
the area of interest with both wet and dry swabs. This
process generated the crime-scene sample. And as
mentioned, Detective Mackie collected the reference
sample from Chavis with a buccal swab, scraping the
inside of Chavis’s cheeks with a Q-tip-like swab to collect skin cells. In both instances, the samples9 were
placed in sealed envelopes and—so far as we know—
delivered to Bode without incident.

9

Reference samples are also (perhaps more helpfully) referred to as “known person samples,” but because the witnesses
and briefing in this case uses the admittedly more customary designation, we refer to the sample taken from Chavis as the reference sample.

App. 9
i.

The crime-scene (or “evidence”) sample

The swabs collected at 61 Fairway Road were delivered to Bode and received by an employee named
Alyssa Morris via Federal Express on November 22,
2016. The record of the swabs’ movement after that
within Bode’s facilities is a bit murky,10 but it appears
to show that they were delivered to Rachel Aponte, a
Bode technician, for the purpose of “analysis” 11 on December 6, 2016. Aponte returned the swabs to Joseph
Hufnagel, who was responsible for storage, one week
later but not before conducting a step that Bode’s testifying witness, Sarah Siddons, describes as “evidence
examination.” During this examination, after retrieving the sample from Bode’s evidence room, Aponte examined the evidence for biological materials, “cut [ ]
the swabs lengthwise . . . then place[d] the swab pieces
into tubes and place[d] the tubes into a secure evidence
room inside the lab.”12 Siddons, the testifying analyst,
10

Other than the affidavit Siddons submitted in support of
the state’s motion in limine, the only documents from Bode in the
record are Siddons’ three-page “supplemental forensic case report” (State’s Ex. 26), two one-page documents entitled inventory
(one of which appears to be the 43rd page of a 53-page document),
and two one-page chain-of-custody documents (one of which appears to be page “1 of 3.” App. to Opening Br. at A62-69; App. to
Answering Br. at B1-3.
11
App. to Opening Br. at A67.
12
Affidavit of Sarah Siddons, App. to Answering Br. at A41,
46. The astute observer will notice that the DNA-testing process
described in Siddons’ affidavit tracks the “summary of lab process” appended to Justice Breyer’s concurring opinion in Williams
v. Illinois, 567 U.S. 50, 100 (2012). Indeed, Siddons confirms that
Justice Breyer’s summary “describes the process used at Bode.”
App. to Opening Br. at A41. We note that Justice Breyer’s

App. 10
did not participate in or witness Aponte’s examination
and cutting of the swabs.
The next step in the process is designed to release
the DNA—if any is present—from the swab and is appropriately called “extraction.” This critical step was
performed by another Bode analyst named Kelsey
Powell. According to Siddons, who, again, did not observe or supervise Powell’s actions:
Powell retrieve[d] the sample from the secure
evidence room and add[ed] chemicals to the
test tubes which release the DNA from the
swab. The tubes which now have chemicals in
them are then incubated for one (1) hour, and
next Powell place[d] a tray of tubes onto a centrifuge. The centrifuge separates the liquid,
which now contains DNA if the original sample in fact contained DNA, from the cotton
swab. The cotton swabs are discarded once the
separation is complete. Now, the tubes only
have liquid in them, the liquid consists of everything that was on the swab plus reagents.
Finally, Powell place[d] the tubes into a refrigerator onside the lab.13
Another technician, Douglas Ryan, retrieved the
samples from the refrigerator and placed the tubes in
a robot that added chemical reagents to the samples,
“separate[ing] the DNA from everything else that was
summary implies that a different technician will perform each
separate step in the process. There is no evidence in this case that
multi-analyst testing is a practical necessity or even a desirable
model.
13
Id. at A41-42.

App. 11
in the tube.”14 Ryan then sealed the tray and placed it
into a freezer, completing the extraction process. Again,
Siddons did not assist or watch Ryan as he performed
this step.
We pause here to note that this account of the
evidence-examination and extraction steps is not
taken from the testimony of any of the analysts who
performed the steps because they did not appear at
trial. Instead, it has been gleaned from the Siddons’ affidavit submitted in support of the State’s motion in
limine—more of which later. But, as noted, Siddons
neither participated in or witnessed any of the activity
described above—her knowledge of what occurred
would have been gleaned from reviewing the case files
generated by the other analysts.
In any event, after the DNA extraction was complete, three more steps—quantification, amplification,
and electrophoresis—were required before a report of
the analysis could be generated. Sarah Siddons performed each of those last three steps. First, in the
quantification step, Siddons added chemicals to the
DNA samples that Powell and Ryan had extracted and
placed the tray holding the sample onto a machine that
measures the amount of DNA in each sample. Of the
two crime-scene samples, only one contained enough
DNA to allow for testing, and it required “concentration,” which was accomplished by running it through a
filter.

14

Id. at A42.

App. 12
Siddons next turned to the step in the process
known as “amplification.” In this step, the technician
adds another chemical mix that facilitates a process
called a polymerase chain reaction (“PCR”). PCR is a
largely automated process during which the DNA sample is placed into a high-precision oven that repeatedly
cycles through a series of temperatures. The chemicals
react to the temperature cycle and produce exponentially rising copies of what are called “short tandem repeats” (“STRs”) in the DNA so that there is a readable
signal from even a tiny amount of DNA.15
After amplifying the DNA, Siddons “placed it into
a tray which was then placed onto the Genetic Analyzer, the machine which actually creates the DNA profiles.”16 This mostly automated step involves a process
known as electrophoresis, which generates a graph
called on electropheragram.17 Siddons had little to say
about her reading of the electropheragram, other than
that she “pulled up the profile and confirmed that the
profile passed, or was satisfactorily readable.”18
15

STRs are repetitive sequences in DNA that have a variable
number of repetitions from person to person. App. to Answering
Br. at B43. For example, one particular STR might be repeated
five times in one person’s DNA and six times in another person’s
DNA. By evaluating enough STRs and finding sufficient matches,
a forensic investigator can conclude that two DNA samples are
statistically highly likely to be from the same person.
16
App. to Opening Br. at A43.
17
The electropherogram “is a visual depiction of the genetic
material resembling a line graph with peaks showing the lengths
of DNA strands at specified loci.” Id.
18
Id. at A43.

App. 13
Siddons then entered the profile into a local database
but did not generate a report.
ii.

The reference (or “known person” sample)

The buccal swabs from Chavis’s mouth were delivered to Bode via Federal Express on January 16, 2017.
The same analytical steps that were taken to analyze
the crime-scene samples were employed in the analysis of this reference sample except that Feng Chen performed the evidence examination and Vanessa Suffrin
performed the extraction. Once again, Sarah Siddons,
who did not participate in or witness any of Chen’s or
Suffrin’s work, performed the quantification and amplification steps and placed the sample into the
Genetic Analyzer so that it could, through electrophoresis, produce a DNA profile. And, as with the profile
produced for the crime-scene sample, Siddons confirmed that the profile was satisfactorily readable and
entered into a local database. This time “[t]he database
reported a ‘hit’ or ‘match.’ ”19
iii. Siddons’s Report
When Siddons learned that the database reported
a “hit,” she reviewed both profiles and “confirmed the
computer’s reported match.”20 Her affidavit notes that
she confirmed that “[t]he evidence profile and
19
20

Id.
Id.

App. 14
reference profile . . . matched at all fifteen (15) loci analyzed at Bode.”21 But one more step was required before Siddons could write her report. Because Siddons
had not performed or witnessed the first two steps in
the analysis, she “reviewed the case files for both the
evidence sample and the reference sample . . . and confirmed that Standard Operating Procedures were followed.”22 Satisfied that Aponte, Powell, Ryan, Chen,
and Suffrin had performed the earlier steps competently and in accordance with Bode’s standard operating procedures, Siddons authored the report, which
contained the expert opinion that was offered at
Chavis’s trial.
C. The State’s Motion in Limine
Before trial, the State moved the Superior Court
to allow the introduction into evidence of Bode’s DNAtesting results through Siddons’s testimony and without requiring the State to produce the other Bode analysts for cross-examination by Chavis. In its motion,
the State downplayed the importance of the steps
taken by the analysts other than Siddons. According to
the State’s motion:
Siddons [was] the only person at Bode who
performed testing and analysis on the samples. Other Bode employees (also referred to
as “analysts”) only prepared the samples for
Siddons’ eventual testing by cutting swabs,
21
22

Id.
Id.

App. 15
adding reagents to test tubes, and placing
samples onto machines. The actions taken by
the other Bode analysts were preparatory in
nature and did not yield any data or result,
and no report was generated.23
The State also argued that Siddons was a qualified
expert and that, as such, under D.R.E. 703, she was
permitted to rely on facts and data provided by the
other analysts in rendering her opinion.
Chavis responded that Siddons’s assurances that
Aponte, Chen, “and anyone else who might have performed similar ‘analysis’ ”24 did so competently were inadequate to satisfy his “right to confront and crossexamine those people at trial.”25 Chavis also claimed
that, under 10 Del. C. § 4331—a statute that Chavis
described as “Delaware’s chain of custody statute”—
“[all] technicians who physically manipulated [the]
DNA samples for the stated purpose of ‘analysis’
should be required to appear at trial in order for the
State to establish a proper chain of custody.”26 Chavis
did not, however, challenge Siddons’s qualifications as
an expert or object to Siddons’s report and testimony
on the grounds that they incorporated factual assertions that were beyond her personal knowledge.
The Superior Court held a hearing on the State’s
motion at which it considered Siddons’ affidavit,
23
24
25
26

App. to Opening Br. at A21.
Id. at A54.
Id.
Id. at 56.

App. 16
Siddons’ final report, and a handful of chain-of-custody
documents that Chavis had appended to his response
to the State’s motion. Neither Siddons nor anyone else
from Bode testified about the qualifications of the nontestifying analysts or their adherence to Bode’s standard operating procedures in this case. After hearing
the argument of counsel, the Superior Court granted
the State’s motion, ruling that the only testimonial
statements encompassed in Bode’s DNA-testing results were those made by Siddons and that, therefore,
her appearance at trial would satisfy Chavis’s confrontation rights. Accordingly, at Chavis’s trial, the only
witness to testify in support of Bode’s DNA testing results and conclusions was Sarah Siddons.
D. Siddons’s Trial Testimony
At trial, after Siddons described her training as a
DNA analyst, her employment at Bode, and her experience in DNA-typing technology, the State proffered
her as an expert in DNA analysis. Chavis’s counsel
stated for the record that he had “no objection” to Siddons’s expert-witness status.27 Siddons then described
the DNA testing process in much the same manner as
she did in the affidavit she submitted in support of the
State’s motion in limine. As she testified in detail about
the testing steps conducted by Aponte, Chen, Ryan,
Powell, and Suffrin, Chavis did not object on hearsay
or other evidentiary grounds, apparently content to
limit his challenge to his confrontation-clause and
27

App. to Answering Br. at B42.

App. 17
chain-of-custody objections. At no point during Siddons’s direct examination did she recount any statement made or conclusions reached by any of the
nontestifying analysts. She did explain, however, that
she was able to generate one DNA profile from the two
evidence samples and a profile from the reference sample. And, according to Siddons, “the male profile obtained from the evidence sample was a match to the
male profile from [Chavis’s] reference sample,”28
matching at all fifteen loci. Siddons’s written report,
which was admitted into evidence, noted that “[t]he
probability of randomly selecting an unrelated individual with this DNA profile at 15 of 15 loci tested is approximately . . . 1 in 26 quintillion in the U.S. African
American population.”29
II.

ANALYSIS

In his briefs, Chavis states his claim as two-fold.
Under his first claim, Chavis asserts that permitting
the State to introduce the DNA-testing results without
the testimony of all the analysts who touched the DNA
samples violated his Confrontation Clause rights and
“Delaware’s chain of custody law” found, according to
Chavis, in 10 Del. C.§ 4331. In his second argument,
Chavis challenges the sufficiency of the evidence supporting his burglary conviction. We see Chavis’s first
claim as presenting two analytically distinct issues,
which are also subject to different standards of review,
28
29

Id. at B45.
Id. at B1.

App. 18
and treat them as such in this opinion. We will begin
our discussion, therefore, with Chavis’s Confrontation
Clause claim, followed by his chain-of-custody argument, and conclude with his challenge to the sufficiency of the evidence.
A. Standard of Review
We review de novo whether the Superior Court’s
decision to grant the State’s motion in limine violated
Chavis’s confrontation rights under the Sixth Amendment of the United States Constitution.30 We review
the Court’s evidentiary ruling on Chavis’s chain-of-custody argument for abuse of discretion.31 And finally, we
review de novo Chavis’s sufficiency-of-the-evidence
claim by asking whether any rational trier of fact,
viewing the evidence in the light most favorable to the
State, could find Chavis guilty beyond a reasonable
doubt of burglary in the second degree.32
B. Chavis has not identified an out-of-court
statement by an absent witness that was offered as a substitute for in-court testimony
against him.
Chavis and the State reach different answers to
the question that is at the heart of Chavis’s Confrontation Clause claim: whether the nontestifying analysts’
30
31
32

Warren v. State, 774 A.2d 246, 251 (Del. 2001).
McNally v. State, 980 A.2d 364, 370-71 (Del. 2009).
Davis v. State, 706 S.2d 523, 525 (Del. 1998).

App. 19
entries in the case files about their work, which Siddons relied upon to generate her report and related
testimony, were testimonial. Chavis argues that the
nontestifying analysts (Aponte, Powell, Ryan, Chen,
Suffrin) made “implicit and explicit out-of-court testimonial statements . . . [that Siddons] relied upon and
relayed to the jury . . . ”33 and that he therefore had the
right to confront those analysts. The State counters
that the work done by the nontestifying was not testimonial for a host of reasons. Among these reasons are
that the nontestifying analysts “did not produce data
on which Siddons relied,”34 that many of the “processes
for generating DNA profiles are automated,”35 that the
DNA profiles are self-verifying because “[t]he DNA
profiles [themselves] would have reflected any errors
committed during the DNA testing’s preliminary
stages,”36 and that the implicit statements of the nontestifying analysts, which Siddons relied upon in her
testimonial affidavit, were insufficiently formal to
themselves qualify as testimonial statements. The
State also posits that Siddons was allowed to rely on
the nontestifying analysts’ entries in the case files because those entries were “facts or data . . . of a type
reasonably relied upon by experts in the particular
field in forming opinions or inferences upon the subject” and therefore “need not be admissible in evidence

33
34
35
36

Supp. Opening Br. at 5.
Answering Br. at 27.
Id.
Id. at 30.

App. 20
in order for the opinion or inference to be admitted.”37
After consideration of precedent from the United
States Supreme Court and other jurisdictions, we conclude that the nontestifying analysts’ entries in the
case files were not testimonial because those entries
did not take the form of statements designed to serve
as a substitute for in-court testimony against Chavis.
i.

The Relevant United States Supreme
Court Precedent

In its seminal decision in Crawford v. Washington,
the United States Supreme Court held that the Sixth
Amendment’s Confrontation Clause bars the prosecution from introducing the testimonial statements of
witnesses absent from trial unless the witness is unavailable and the defendant has had a prior opportunity
to cross-examine him.38 In the next decade and a half,
the Supreme Court has applied its holding in Crawford
in an oft-discussed —and frequently lamented39—trilogy of forensic-analyst cases, starting in 2009 with
Melendez-Diaz v. Massachusetts,40 followed by Bullcoming v. New Mexico41 in 2011 and Williams v.
37

App. to Opening Brief at A31; Supp. Answering Br. at 27.
541 U.S. 36, 59 (2004).
39
See, e.g., Justice Gorsuch’s dissent from the denial of the
petition for writ of certiorari in Stuart v. Alabama, ___ U.S. ___,
139 S.Ct. 36, 202 L Ed. 2d 414 (Mem.) (2018) (noting that the
Court’s “various opinions have sown confusion in courts across
the country”).
40
557 U.S. 305 (2009).
41
564 U.S. 647 (2011).
38

App. 21
Illinois42 in 2012. Despite the uncertainty that surrounds certain aspects of those cases, it appears to be
well-settled that forensic evidence, including DNA
analysis like the one conducted in this case, is subject
to the Supreme Court’s holding in Crawford. The question remains, however, what exactly is testimonial and
thus subject to the Crawford holding.
That question was first answered in MelendezDiaz. In that case, the Court held by a 5-4 majority that
three “certificates of analysis” that reported the results
of the forensic testing of a substance—to determine its
weight and whether it was cocaine—were testimonial
statements subject to the requirements of the Confrontation Clause. That meant that the defendant was entitled to confront the analysts who prepared the
certificates at trial. Justice Scalia emphasized that the
certificates were “affidavits” and “functionally identical to live, in-court testimony, doing ‘precisely what a
witness does on direct examination.’ ”43 The sole purpose of the affidavits was to provide prima facie evidence of the composition, quality and weight of the
analyzed substance, i.e., to prove an element of the offense. As such, “the analysts’ affidavits were testimonial statements, and the analysts were ‘witnesses’ for
purposes of the Sixth Amendment.”44

42

567 U.S. 50 (2012).
557 A.2d at 310-11 (quoting Davis v. Washington, 547 U.S.
813, 830 (2006)).
44
Id. at 311.
43

App. 22
Two years later, in Bullcoming,45 the Supreme
Court addressed the adequacy under the Confrontation Clause of a surrogate expert’s testimony concerning a forensic laboratory report that contained a
testimonial certification of Bullcoming’s blood-alcohol
concentration in a driving-while-intoxicated trial. The
surrogate had not signed the certification or personally
performed—or observed the performance of—the test
reported in the certification. The New Mexico Supreme
Court was satisfied that the testimony of the surrogate, because it was live testimony by an analyst who
was qualified to operate the relevant testing equipment,46 could serve as a substitute for the absent analyst who actually performed the test. But, like the
certificates in Melendez-Diaz, the blood alcohol report
in Bullcoming was used to prove that the defendant’s
BAC exceeded the legal limit, again, proving an element of the offense. Justice Ginsburg, writing for a 5-4
majority, thus found that the blood alcohol report was
testimonial and the analyst who prepared the report
needed to testify, reversing the New Mexico Supreme
Court. Justice Sotomayor, in her concurrence, emphasized the importance of the evidence’s purpose as a factor in determining whether it was testimonial: “To
determine if a statement is testimonial, we must decide whether it has ‘a primary purpose of creating an
out-of-court substitute for trial testimony.’ ”47
45

564 U.S. 647.
Id. at 652.
47
Id. at 669 (quoting Michigan v. Bryant, 562 U.S. 344, 358
(2011)).
46

App. 23
Rounding out the trilogy of the Supreme Court’s
opinions that address the Confrontation Clause in the
forensic testing context is Williams v. Illinois, “[t]he
precise holding of [which],” we have noted is “less than
clear.”48 In that case, an expert testified that two DNA
profiles matched even though she was only involved in
producing one of the profiles. The other profile—the
one produced from a swab of the victim—had been produced by an outside laboratory, and no one from that
lab testified. A four-justice plurality held that the defendant’s Confrontation Clause rights were not violated because the expert’s references to the DNA
profile were not offered to prove the truth of the matter
asserted and were thus not testimonial.49 Specifically,
the plurality said that there was no Confrontation
Clause violation because the expert’s testimony did not
assert that the DNA profile generated by the outside
laboratory was in fact an authentic profile made from
the victim; rather, when the expert testified, she did so
under the hypothetical that the profile was authentic,
and it is permissible for experts to testify as to hypotheticals.50
Justice Thomas, who concurred only in the judgment, rejected the plurality’s conclusion that the expert’s references to the outside laboratory’s profile
were not offered to prove that profile’s authenticity. Rather, Justice Thomas believed that the DNA profiles
48
49
50

Martin v. State, 60 A.3d 1100, 1104 (Del. 2013).
Williams, 567 U.S. at 57-58.
Id. at 67-71.

App. 24
themselves were nontestimonial because the “statements lacked the requisite formality and solemnity to
be considered testimonial for purposes of the Confrontation Clause.”51 But no other justices joined in that
reasoning.
Justice Breyer, who joined the plurality opinion,
wrote separately to point out an important question—
in fact, the very question that is before us here—that
he “believe[d] neither the plurality nor the dissent answers adequately:”52 if more than one laboratory technician was involved in the analysis – as was the case
in Chavis’s DNA analysis —“[w]ho should the prosecution have had to call to testify?”53 Justice Breyer did
not himself answer that question and would have
asked for reargument. In the absence of reargument,
he considered the DNA profile nontestimonial because
it “embodie[d] technical or professional data, observations, and judgments,”54 and, thus, it did not fall within
the scope of the Confrontation Clause.
We pause here to note that none of the cases in the
aforementioned trilogy squarely addresses the issue in
front of us. Here, an expert, Siddons, testified to the results of a forensic analysis, but in doing so, relied upon
information that experts in her field typically rely
upon—case files by other testing analysts who manipulate the DNA samples in order to prepare them for
51
52
53
54

Id. at 103-04 (THOMAS, J., concurring).
Id. at 86, 90 (BREYER, J., concurring).
Id. at 90 (BREYER, J., concurring).
Id. at 93 (BREYER, J., concurring).

App. 25
the expert, but who do not themselves analyze the result. Because these other analysts are not testifying as
to the final result of the forensic analysis, it is not clear
whether their work is testimonial under MelendezDiaz, which dealt with certificates attesting to the results of the forensic testing. Nor is Siddons a surrogate
expert as in Bullcoming—she was herself involved in
the preparation and analysis of the two DNA samples.
And there is no testimony as to a hypothetical here—
Siddons worked on both DNA samples and testified as
to the results of both.
Melendez-Dias and Bullcoming do, however, point
to an indicator for when a statement is testimonial: the
purpose of the statement in proving an essential element of the crime. Regrettably, the case files produced
by the nontestifying analysts, which Siddons relied
upon and which Chavis seems to claim contain the
nontestifying analysts’ out-of-court-statements, are
absent from the record.55 But assuming that we could
conjure up those statements despite their absence, we
could not go so far as to presume that they include assertions of fact tending to prove an essential element
of the crimes. Even Chavis only posits that the nontestifying analysts’ statements relate to their adherence to testing protocols and the absence of irregularities (following standard operating procedures and not
seeing any evidence of taint or contamination)—he
55

See note 10, supra. It is noteworthy that Chavis does not
identify any particular statement in the few Bode documents in
the record as an out-of-court statement that gives rise to his confrontation right.

App. 26
does not argue that those statements in and of themselves were used to prove his identity or any other element of the crimes he was charged with.
ii.

Delaware Precedent: Martin v. State

In deciding whether the nontestifying analysts’ results are testimonial, we also turn to our own precedent. In Martin v. State, a case involving a conviction
for driving while under the influence or with a prohibited drug content, we attempted to detangle the United
States Supreme Court’s holdings in Melendez-Dias,
Bullcoming, and Williams. In the proceedings below,
the Superior Court had admitted a toxicology report
showing that the defendant’s blood tested positive for
phencyclidine (PCP or “angel dust”). The State entered
the report into evidence through the live testimony of
Jessica Smith, the Chief Forensic Toxicologist of the
Office of the Chief Medical Examiner (OCME). Unlike
Siddons in this case, Smith did not conduct the tests
that produced the report, but rather had only prepared
the report and certified it after reviewing the results of
the analysis, which was actually conducted by Heather
Wert, an OCME chemist.
We noted that the situation presented by Martin
fell somewhere between Bullcoming and Williams.
And because Wert’s testing yielded results, we held
that those results were testimonial56 and were admitted for the truth of the matter asserted.57 Although
56
57

Martin, 60 A.3d. at 1106, 1108.
Id. at 1107.

App. 27
Smith, unlike the expert in Bullcoming, was the certifying analyst, she neither observed nor participated in
Wert’s testing. That lack of participation rendered her
unqualified to testify as to testing itself, the results of
which were testimonial and admitted for the truth of
the matter asserted. And because there was no evidence that Wert was unavailable or that the defendant
had the opportunity to cross examine her prior to trial,
the trial judge erred by admitting the toxicology evidence. Finally, because the toxicology report was “the
principal factor” in Martin’s convictions,58 we reversed
the judgment of the Superior Court.
This case, like Martin, also falls somewhere between Bullcoming and Williams—we have a certifying
analyst testifying to testing results where multiple analysts were involved in the testing or certification. But
unlike Martin, Bullcoming, or Williams, this case involves a testifying analyst who was also involved in the
testing of both DNA samples and who certified the results. The question is thus whether the other analysts’
statements about their work—the entries in the case
files—are testimonial, even though those analysts only
performed preliminary steps that enabled Siddons to
generate the final DNA profile. As mentioned, we find
that those statements are not testimonial because they
fail the United States Supreme Court’s test—they did
not serve as a substitute for in-court testimony tending
to prove an essential element of the crime. In so

58

Id. at 1109.

App. 28
concluding, we are in agreement with many of our sister states, who have decided this issue in a similar
fashion.
iii. Caselaw from other states
The State has cited several cases from other jurisdictions that we find instructive.59 For example, in
State v. Lopez,60 a forensic analyst testified about DNA
profiles produced in the laboratory where he worked.
That analyst “directed specific analysts to perform
each stage of the DNA testing on each of . . . seven samples.”61 After the DNA profiles were created from the
samples, the analyst “reviewed the entire case file and
confirmed that all protocols were followed properly by
examining the other analysts’ [who manipulated the
DNA samples to create the profiles] notes, their affirmations that protocols were followed, as well as their
conclusions.”62 The testifying analyst, however, “never
physically touched the evidence in [the] case” and “did
not personally observe the analysts who conducted the
cutting, extraction, or quantification.”63
The Supreme Court of Rhode Island nevertheless
found that the analyst’s testimony did not violate the
Confrontation Clause because he “testified to . . . his
own independent, scientific opinions” that were based
59
60
61
62
63

Answering Br. at 25 n.48, 29 n.65.
State v. Lopez, 45 A.3d 1 (R.I. 2012)
Id. at 13.
Id.
Id. at 10.

App. 29
on raw data produced by laboratory analysts who manipulated the DNA samples.64 In other words, the Supreme Court of Rhode Island found that any
statements made by the other analysts about their manipulation of the DNA samples were not testimonial,
and that only the analyst’s conclusions as to what the
DNA profile meant was testimonial. Those opinions
were formulated by “independently analyz[ing] all the
raw data [produced from the technicians’ manipulation of the DNA samples], formulat[ing] the allele table, and then articulat[ing] his own final conclusions
concerning the DNA profiles and their corresponding
matches.”65 Here, Siddons’s participation was more extensive than the analyst in Lopez—she was personally
involved in creating the DNA profile from the DNA
sample, albeit only in the later stages.66
Other states have reached the same conclusion
that analysts who only manipulate the DNA sample
and who state that they have followed standard operating procedures in doing so are not making testimonial statements.67 And we tend to agree for the same
reasons.

64

Id. at 13 (R.I. 2012).
Id.
66
Because Siddons’s participation was more extensive, we
need not address the question of whether we would have reached
the same result given the facts in Lopez.
67
Parades v. State, 462 S.W.3d 510, 513 (Tx. Ct. Crim. App.
2015) (finding that an analyst who did not manipulate the sample
to create the DNA profile or supervise the manipulation of the
sample was nevertheless permitted to testify because “she was
65

App. 30
Here, it cannot be said that any of the nontestifying analysts’ manipulation of the samples generated
any results or that their entries in the case files were
testimonial. That the primary purpose of the analysts’
entries in the case files was decidedly not to provide
evidence against Chavis or to act as a substitute for
trial testimony is shown by the fact that, unlike the
statements at issue in Melendez-Diaz, Bullcoming,
Williams, and Martin, they were never offered as evidence at trial. Indeed, from the record we have before
us, we cannot even be sure what the statements were.
We can only infer that the nontestifying analysts’
statements concerned whether they followed standard
operating procedures. Such statements—i.e., that they
examined and manipulated the DNA swabs in a particular manner—did not provide testimony against
Chavis. And under the Confrontation Clause, it should
be remembered, the accused enjoys the right “to be confronted with the witnesses against him.”68
Nor would the entries have been offered to show
that Chavis committed an act that was an element of
the crimes with which Chavis was charged. Although
the DNA profile that was the end result of all the analysts’ combined work was offered to prove the identity
of the burglar at 61 Fairway Road, the intermediary
responsible for compiling the data generated by the various instruments and reaching the ultimate conclusion); State v. Med.
Eagle, 835 N.W.2d 886, 899 (S.D. 2013) (allowing testimony from
an analyst because she “independently reviewed, analyzed, and
compared the data obtained during the . . . testing”).
68
U.S. Const. amend. VI (emphasis added).

App. 31
steps taken do not themselves prove—or aim to
prove—anything. In short, we are unable to identify a
statement made by any of the nontestifying analysts
that can fairly be characterized as testimonial. Therefore, Chavis’s Confrontation Clause claim fails.
This is not to say that the statements of the nontestifying analysts were irrelevant to the Siddons’s
opinion. To the contrary, Siddons acknowledged that
the other analysts’ adherence to standard operating
procedures and their entries in the case files to that
effect were essential to her conclusion. But just because a declarant makes an out-of-court statement
that may have some relevance to a fact at issue in a
criminal trial does not make that declarant a “witness[ ] against” the defendant within the meaning of
the Sixth Amendment. In this regard, Chavis might
have challenged Siddons’s opinion or testimony on the
grounds that they lacked an adequate foundation because of her lack of personal involvement in the early
stages of the testing process or that Siddons’s reliance
on information by the nontestifying analysts was improper under D.R.E. 703.69 In that case, the trial court
would have been free to assess the impact and fairness
of allowing Siddons to offer her report and opinion in
the absence of testimony from the other analysts. But
Chavis chose not to challenge Siddons’s report or

69

See D.R.E. 602 (“A witness may testify to a matter only if
evidence is introduced sufficient to support a finding that the witness has personal knowledge of the matter.”).

App. 32
testimony on these evidentiary grounds, and therefore
we need not address them.
C. The Superior Court’s rejection of Chavis’s
chain-of-custody argument was not an
abuse of discretion.
Chavis also argues that the absence of testimony
from all the Bode analysts who participated in the
DNA testing left a fatal gap in the chain of custody of
the DNA swabs and, for that reason, the DNA evidence
was not properly authenticated under D.R.E. 901.70 In
making this argument, Chavis relies heavily upon 10
Del. C. 4331 and its application in Milligan v. State.71
To be sure, 10 Del. C. § 4331 is entitled “Chain of
physical custody or control” and is found in Chapter 43
of Title 10 of the Delaware Code, a chapter entitled
“Evidence and Witnesses.” And § 4331 provides that
the personal appearance of a person who “actually
touche[s] a tested substance and not merely the outer
sealed package in which the substance was placed by
law enforcement agency,”72 may be unnecessary to establish chain of custody if that person signs a statement meeting certain requirements. Here, the State
offered no such statement and, Chavis claims, its
70

Under D.R.E. 901(a), “[t]o satisfy the requirement of authenticating or identifying an item of evidence, the proponent
must produce evidence sufficient to support a finding that the
item is what the proponent claims it is.”
71
116 A.3d 1232 (Del. 2015).
72
10 Del. C. § 4331(1)(c).

App. 33
failure to do so warranted exclusion of the DNA evidence. But § 4331 by its explicit terms is applicable
“[i]n the context of controlled substances,”73 not DNA
evidence.
Chavis tries to skirt this limitation by noting that,
in Milligan v. State, “this Court considered § 4331 applicable to a case involving driving under the influence.”74 But Chavis’s reliance on Milligan is equally
misplaced, because the chain-of-custody section of the
DUI statute under which Milligan was prosecuted expressly incorporates “the same procedures outlined in
§ 4331(3) of Title 10.”75
Chavis also points to our consideration of § 4331
in connection with gunshot residue evidence in
McNally v. State.76 Yet nowhere in McNally did we even
hint that § 4331 had some application beyond the controlled substance context. Rather, we merely remarked
that the State did not have the discretion to ignore subpoenas issued under 10 Del. C. § 4332—a statute that
is not limited to the controlled-substance context.
Moreover, we concluded in McNally that it was not an
abuse of discretion for the Superior Court to have admitted the challenged evidence without the testimony
of an employee at the testing laboratory who handled
the evidence.

73
74
75
76

10 Del. C. § 4331.
Answering Br. at 17.
21 Del. C. § 4177(h)(3).
980 A.2d 364 (Del. 2009).

App. 34
“Absent an abuse of discretion, breaks in the chain
of custody go to the weight rather than the admissibility of the evidence.”77 Indeed, “[w]e have never interpreted [our chain-of-custody] standard as requiring
the State to produce evidence as to every link in the
chain of custody. Rather, the State must simply demonstrate an orderly process from which the trier of fact
can conclude that it is improbable that the original
item has been tampered with or exchanged.”78 Here,
the State offered considerable live testimony on the
chain of custody within the police department,79 and
Siddons, as mentioned, offered credible testimony
about the chain of custody at Bode. Simply because certain testimony is insufficient to vindicate a defendant’s
rights under the Confrontation Clause does not mean
that the State has failed to meet its burden under
D.R.E. 901 to show that “there is a reasonable probability that the evidence offered is what its proponent
claims it to be.”80 We conclude that the Superior Court
did not abuse its discretion by rejecting Chavis’s chainof-custody argument.

77
78
79
80

McNally, 980 A.2d at 371.
Demby v. State, 695 A.2d 1127, 1131 (Del. 1997).
App. to Answering Br. at B28-29, B37, B20.
McNally, 980 A.2d at 370.

App. 35
D. The other evidence linking Chavis to the
burglary renders Monroe inapposite.
Chavis also claims that the evidence at trial was
insufficient to support his burglary conviction, relying
on our decision in Monroe v. State.81 In Monroe, we analyzed an insufficiency-of-evidence claim where the
sole evidence of identity was the defendant’s fingerprints on the outside of a business’s front door. We held
that “the range of abundant, innocent explanations for
the presence of Monroe’s prints on the plexiglass
shards is too vast for any rational trier of fact to have
found beyond a reasonable doubt an essential element
of both charged offenses—namely, identity.”82 Chavis
argues that
“[t]he State presented no evidence that
Chavis ever entered the apartment at 61 Fairway Road [or] . . . that Chavis was even present when the burglary at issue was
committed . . . [and] rel[ied] solely on DNA evidence to establish identification as to the alleged burglary.”83
The evidence presented in this case is readily distinguishable from the facts in Monroe. Contrary to the
Chavis’s assertions, the DNA was not “the only evidence linking Chavis to the 61 Fairway Road burglary.”84 Among other things, the State produced
81
82

652 A.2d 560 (Del. 1995).
Monroe, 652 A.2d at 567 (internal quotation marks omit-

ted).
83
84

Opening Br. at 20.
Id. at 6.

App. 36
evidence that Chavis owned clothing that appeared to
match the clothing of the suspect depicted in the numerous photographs. The suspect was seen peeping
into ground-floor apartments on more than one occasion, and the apartment at 61 Fairway Road was on the
ground floor. More to the point, several surveillance
photographs depicting the burglary suspect who resembled Chavis were introduced into evidence. Therefore, Chavis’s argument under Monroe fails.
III.

CONCLUSION

For the foregoing reasons, we AFFIRM the Superior Court’s judgment of conviction.

App. 37
APPENDIX B
IN THE SUPERIOR COURT OF
THE STATE OF DELAWARE
IN AND FOR NEW CASTLE COUNTY
STATE OF DELAWARE
v.
DAKAI CHAVIS,
Defendant.
BEFORE:

)
)
)
)
)
)

I.D. NO. 1701001697
I.D. NO. 1701002608

HONORABLE CHARLES E. BUTLER, J.

APPEARANCES:
NICHOLE WHETHAM WARNER, ESQ.
KELLY HICKS-SHERIDAN, ESQ.
Deputy Attorneys General
For the State
JOHN KIRK, ESQ.
ROBERT M. GOFF, JR., ESQ.
For the Defendant
--------------------------

MOTION IN LIMINE TRANSCRIPT
APRIL 13, 2018
--------------------------

[39] THE COURT: So this is the State’s motion in limine to admit results of the DNA analysis
through the testimony of Sarah Siddons. The Court is

App. 38
going to grant the State’s motion in limine to admit the
testimony.
And I’ll just make a couple of comments. In my
view, on balance, the testimony of Siddons is the testimony that is testimonial in nature. I don’t believe that
the functions of the functionaries that prepared the
sample were testimonial statements, so I don’t think
that the [40] right of confrontation is abused by their
not giving testimony in the case. The defendant’s right
to confront and cross-examine is safeguarded by the
testimony of his accuser, which is Siddons. So I don’t
find a confrontation clause problem.
And I would postscript, I’ve read carefully the
briefs by both sides. They were both very well prepared. They accurately and adequately exposed and
demonstrated the positions of both sides. So to the extent that a Judge does that, I would incorporate the
arguments made by the State, which I thought were
really superior.
As to the chain of custody, the chain, as we know,
does not suffer from the same – I shouldn’t say suffer.
It does not have to adhere to the same rigidity that a
Crawford analysis would require. It is enough if the
State can establish within a reasonable certainty that
the evidence analyzed is connected to the crime scene
and the defendant.
From what I’ve seen, assuming that those officers
that first took the evidence testify, the chain is not really a problem here. Again, we didn’t get into it too
much with the foundational [41] requirements, but the

App. 39
Court has gone through this in some detail on a number of occasions.
The one that jumps out to me is Trioche v. State,
but certainly there’s Whitfield v. State and a number of
other cases. The parties, obviously, understand that
question, and I do not believe that the testimony of the
person who separated the DNA from the swab or otherwise acted inside the lab is essential to the chain, on
the assumption that, assuming Siddons testifies pursuant to the proffer made in her affidavit that she is
familiar with these processes and procedures, and she
can testify and identify who did what. That will satisfy
the chain of custody requirement.
So the State’s motion is granted. And the Court is
in recess. And may I say to both counsel, you didn’t
have a winning hand here. You did a great job. State,
excellent presentation. Thank you.
MS. WARNER:
THE COURT:

Thank you, Your Honor.
We are in recess.

App. 40
APPENDIX C
IN THE SUPERIOR COURT
FOR THE STATE OF DELAWARE
STATE OF DELAWARE, )
)
v.
) ID. Nos. 1701001697 &
DAKAI CHAVIS
) 1701002608
Defendant. )
)
AFFIDAVIT
I, Sarah Siddons, do solemnly swear that the information in this Affidavit is true and accurate, and submit the following:
1.

I earned my Bachelor’s of Science degree in Forensic Science, with a concentration in Biology, from
Penn State University. After obtaining that degree, I worked at Penn State University as a
Teacher’s Assistant, helping to teach a Trace Evidence class. I began working at Bode Cellmark
Forensics (“Bode”) in 2014. I am currently an Analyst II at Bode. In addition to my degree and experience, I complete eight (8) hours of continuing
education per year.

2.

Bode Ccllmark Forensics laboratory in Lorton,
Virginia is proficiency tested every six (6) months.
If the analyst were to receive an “unsatisfactory”
mark, then the analyst would stop work immediately and undergo mandatory training before a
re-test was successfully completed.

App. 41
3.

Bode analyzes evidence and reference samples in
an effort to obtain DNA profiles.

4.

An “evidence sample” means that the evidence
was collected as part of a criminal investigation.
The mode of collection in this case was cotton
swab.

5.

The evidence sample in this case came from New
Castle County Police Department and arrived at
Bode via FedEx on November 22, 2016.

6.

“Reference sample” refers to a sample taken from
a known person. The reference sample profile is
then compared to the evidence sample profile, if
one was obtained.

7.

The reference sample in this case came from New
Castle County Police Department and arrived at
Bode via FedEx on January 16, 2017.

8.

I am the analyst who generated and manually confirmed the DNA profiles obtained from both the
evidence sample and the reference sample in this
case.

9.

The additional analysts at Bode who handled the
samples did not conduct a test that generated any
data or results and each step taken before I began
working with the samples was preparatory in nature.

10. If the samples were mishandled or tampered with,
the DNA profile could degrade, or additional DNA
profiles could have been found.
11. In this case, neither DNA profile showed signs
degradation and each sample yielded a single
source DNA profile.

App. 42
12. Bode would not test a sample that showed evidence of tampering and/or which had a broken
seal.
13. The attached info-graphic called “A. Profile of
Suspect’s Sample (Summary of Lab Process)” describes the DNA process used at Bode. Using the
language from the info-graphic the following describes what happened to the Evidence Sample in
this case (note that the technician numbers have
been removed because the info-graphic did not account for all Bode analysts):
1.

Evidence Examination

11/22/16 Alyssa Morris receives the
FedEx package and places the evidence into a
secure evidence room.
Joseph Hufnagel transferred the sample
to Rachel Aponte.
Rachel Aponte retrieves the samples from
the evidence room and takes them into a lab
where she cuts the swabs lengthwise. Aponte
then places the swab pieces into tubes and
places the tubes into a secure evidence room
inside the lab.
2.

Extraction

Kelsey Powell (Dawson) performs the
step called “extraction.” Powell retrieves the
sample from the secure evidence room and
adds chemicals to the test tubes which release
the DNA from the swab. The tubes which now
have chemicals in them are then incubated for
one (1) hour, and next Powell places a tray of

App. 43
tubes onto a centrifuge. The centrifuge separates the liquid, which now contains DNA if
the original sample in fact contained DNA,
from the cotton swab. The cotton swabs are
discarded once the separation is complete.
Now, the tubes only have liquid in them, the
liquid consists of everything that was on the
swab plus reagents. Finally, Powell places the
tubes into a refrigerator onside the lab.
Douglas Ryan retrieves the samples from
the refrigerator and places the tubes onto a
robot. The robot adds reagents to the samples
in order to separate the DNA from everything
else that was in the tube. The robot next
places the samples into a tray. The tray is then
sealed, the wells are checked for fullness, and
the tray now goes into a freezer.
3.

Quantification

I, Sarah Siddons, then perform the step
called “quanting.” I add chemicals to the samples in the tray, then place the tray onto a machine which measures the amount of DNA in
each sample. In this case, only one (1) of the
evidence samples provided by NCCPD had
enough DNA to allow for testing.
After quanting, Douglas Ryan placed the
tray onto a machine that places the samples
back into tubes.
After quanting, some samples require
“concentration.” In this case, the evidence
sample did require concentration and I performed that task. The liquid was run through

App. 44
a filter which collected the DNA. The now filtered, or concentrated, material was placed
into a freezer.
4.

Amplification

Once the DNA is concentrated, it is then
amplified. This step is done by placing the
sample into a machine which changes the
temperature of the sample; this causes millions of copies of the DNA to be made. I conducted the “Amplification,” for the evidence
sample in this case.
5.

Electrophoresis

Once the sample was amplified, I placed
it into a tray which was then placed onto the
Genetic Analyzer, the machine which actually
creates the DNA profiles.
6.

Report

Once the Genetic Analyzer produced a
profile from the evidence sample, I pulled up
the profile and confirmed that the profile
passed, or was satisfactorily readable. The
profile created from the evidence sample
passed and I entered it into a local database.
14. The process for the reference sample is similar to
that for the evidence sample; however, because of
the much higher likelihood of obtaining DNA from
a reference sample, some steps are not necessary.
The following details what happened to the reference sample at Bode.

App. 45
1.

Evidence Examination

On January 16, 2017, Jesus Aponte received the FedEx delivery at Bode. Jesus
Aponte is on the Facilities Team and he delivered it to Alyssa Morris, on the Evidence
Team, within minutes. Alyssa Morris then
placed the sample into the evidence room.
Feng Chen retrieves the sample from the
evidence room and cuts the swabs and places
them into a tray. The tray then goes into the
evidence room inside the lab. This is different
from the evidence sample, which was placed
into a test tube.
2.

Extraction

Vanessa Sufrin took the sample out of the
evidence room. Reagents were added to the
tray, and the tray was incubated for one (1)
hour. The liquid in the tray was then transferred to a new tray. The new tray was placed
onto a machine which separates the DNA
from everything else in the liquid. The swab
cuttings are discarded and the tray with the
DNA is placed into the freezer.
3.

Quantification

I performed the quantification (described
above).
4.

Amplification

I performed
above)

amplification

(described

App. 46
5.

Electrophoresis

After amplification I placed the sample
onto a tray which was then placed onto the
Genetic Analyzer.
The Genetic Analyzer produced a DNA
profile.
6.

Report

Once the Genetic Analyzer produced a
profile from the reference sample, I pulled up
the profile and confirmed that the profile
passed, or was satisfactorily readable. The
profile created from the reference sample
passed and I entered it into a local database.
The database reported a ‘hit’ or a ‘match.’
Once I received the notice of a hit, I reviewed both profiles and confirmed the computer’s reported match.
15. The evidence profile and reference profile in this
case matched at all fifteen (15) loci analyzed at
Bode.
16. Once I confirmed the hit, I reviewed the case files
for both the evidence sample and the reference
sample. I reviewed each case file and confirmed
that Standard Operating Procedures were followed, and they were.
17. Next, I authored my report. My expert opinion
contained in my report is that the evidence and
the reference DNA profiles match, and the probability of randomly selecting an unrelated individual with this DNA profile at 15 out of 15 loci tested

App. 47
is approximately: 1 in 430 quintillion in the US
Caucasian population; 1 in 26 quintillion in the
US African American population, and; 1 in 450
quintillion in the US Hispanic population.
18. My opinion is based on my training and experience
and is expressed to a reasonable degree of scientific certainty.
19. At the time the other analysts performed the earlier steps in order to prepare the samples for
analysis, they would not know who the sample
belonged to.
20. My report was reviewed by two other people before
issuing the final report. One person performed
technical review on the processes, the data, and
my interpretation. A second person performed administrative review on grammar, accuracy, signature, accurate dates, etc.
/s/ Sarah Siddons
Sarah Siddons, DNA Analyst II
Bode Cellmark Forensics
/s/ Karen Hope Bennett
NOTARY PUBLIC
Sworn to or affirmed before me this 12th day of February, 2018. My commission expires 5/31/2019.
[Notary Stamp]

App. 48
APPENDIX D
IN THE SUPERIOR COURT OF
THE STATE OF DELAWARE
IN AND FOR NEW CASTLE COUNTY
STATE OF DELAWARE,

:
:
:
:
:
:

v.
DAKAI CHAVIS,
Defendant.

Cr. ID No.
1701001697

BEFORE: HONORABLE PAUL R. WALLACE, J, and
jury
APPEARANCES:
KELLY H. SHERIDAN, ESQ.
NICHOLE T. WHETHAM WARNER, ESQ.
Deputy Attorneys General
for the State
ROBERT M. GOFF, JR., ESQ.
JOHN F. KIRK, IV, ESQ.
Assistant Public Defenders
for the Defendant
TRIAL TRANSCRIPT
June 21, 2018
*

*

*

[198] A. We received two items, and they were
each individually packaged in their own envelope labeled with their specific case number and a unique

App. 49
identifier. And they each have their description on the
outside as well.
Q. Do you recall the description of the unknown
sample in this case?
A. We had one sample that was swab No. 1, the
handprint, window POE. And then we have swab No.
2, the handprint window POE.
*

*

*

Q. Do you recall the person that the reference
sample with regard to your report came from?
A.

Yes. It was from Dakai Chavis.
*

*

*

[199] Q. How were the samples processed once
they got there?
A. A small portion of each sample was cut. The
swab in this case was cut and put into a tube. Chemicals were added to that tube which just breaks apart
the cell and it’s going to release all the DNA. Each sample will have its DNA measured because we would like
to know the concentration of that sample. From there
we take the DNA extract and make millions of copies.
Those copies are going to go into a machine that reads
it, and it’s going to generate a DNA profile.
*

*

*

[201] Q. What were your results?

App. 50
A. For the evidence sample I received, I obtained
a full single source male profile. And also for the reference sample a full single source male profile.
Q.

And, again, single source means?

A.

From one person.

Q. And that was with both the evidence and the
reference; correct?
A.
Q.
sults?

Correct.
What were you able to conclude from your re-

A. That the male profile obtained from the evidence sample was a match to the male profile obtained
from the reference sample.
*

*

*

[204] Q. I’m going to show you what has already
been marked State’s 26. Can you tell me if you recognize it?
A.

Yes. This is the report that I wrote.
*

*

*

[212] Q. Okay. Ms. Siddons, who is Rachel
Aponte, last name A-P-O-N-T-E?
A.

She was a sampling technician.

Q. And who is Feng Chen, F-E-N-G, last name
C-H-E-N?
A.

She was also a sampling technician.

App. 51
Q.

At Bode laboratories?

A.

Yes. Sorry.

Q.

Are they still employed there?

A.

Neither of them work there anymore.

Q. Okay. On December 6, 2016, Ms. Aponte noted
that she received Bode sample 8144 for the stated purpose of analysis; is that correct?
A.

Yes.

Q. And sample 8144 is the designation that you
gave the handprint sample; right?
A.

Yes. That was handprint, the swab No. 1.

Q. Okay. And then on December 12, 2016, Ms.
Aponte had that sample, and she cut a – she cut some
of that sample. She cut half of each swab and combined
a 50 percent solution; is that right?
[213] A.

Yes, that is correct.

Q. Okay. So Ms. Aponte on December 12th, she
was physically manipulating that sample; right?
A. Yes. She physically cut the sample to put into
a tube.
Q.

Okay. And Ms. Chen, it is Ms.; right?

A.

Yeah.

App. 52
Q. Ms. Chen, on January 27th of 2017, she received Bode sample 0383. That was the sample that
came back as a profile for Mr. Chavis; is that correct?
A.

Yes, that’s correct.

Q. You received that sample also for the stated
purpose of analysis; correct?
A.

Yes.

Q. And on January 31st, 2017, Ms. Chen cut .5 –
well, the exact language and science is not my thing, so
I’m going to read it precisely so that I get it correct. Ms.
Chen, it says, cut 0.5CM two of filter paper and then in
parentheses, 15 percent staining, end parentheses; is
that right?
A.

That is correct.

Q. Is it accurate to think of the whole process
kind of like an assembly line, and they’re in the middle
of the assembly line doing their thing and you’re at the
end doing – the buck stops with you?
A.

Yeah.

Q.

Is that accurate?

A.

Yes, that’s a good way to look at it.

Q. Okay. Now, how is it that we can safeguard,
though, that with Ms. Chen and Ms. Aponte’s physical
manipulation of the DNA that nothing happened there
in those processes to create a problem, contaminate

App. 53
the [215] samples or anything like that when it eventually comes to you?
A. Since we are a very ethical lab, if something
were to have happened where they thought contamination could have occurred, they would have reported
that event somewhere. They would have put it on that
sheet that you’re looking at that shows how much they
cut. They would have put it in a separate case note.
There would be documentation somewhere if they felt
there was any sort of contamination.

App. 54
APPENDIX E
[LOGO] Bode Cellmark
FORENSICS
LabCorp Specialty Testing Group
10430 Furnace Road, Suite 107
Lorton, VA 22079
Phone: 703-646-9740
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Supplemental Forensic Case Report
July 31, 2017
To:

New Castle County Police Department
3601 N Dupont Hwy
New Castle, DE 19720

Bode Cellmark Case #: BHJ1611-8144, -8145,
BHJ1701-0383
Agency Case #: 32-16-108025
Cross-Reference Agency Case #: 32-16-115071
Suspect: Dakai D Chavis
List of Evidence Received on November 22, 2016
for possible DNA analysis:
Bode Cellmark
Sample #

BodeHITS # Description

BHJ1611-8144-E01 2016-15345/1 wet/dry swab # 1
hand print on
window POE
BHJ1611-8145-E01 2016-15346/1 wet/dry swab # 2
hand print on
window POE

App. 55
List of Evidence Received on January 16, 2017
for possible DNA analysis:
Bode Cellmark
Sample #

BodeHITS # Description

BHJ1701-0383-R01 2017-00237/1 Dakai D Chavis
[Reference
Buccal Collector]
STR PROCESSING, RESULTS, CONCLUSIONS,
AND STATISTICS:
The evidence was processed for DNA typing using the
Applied Biosystems AmpFLSTR® Identifiler® Plus
kit.
1.

A DNA profile was previously obtained from
sample BHJ1701-0383-R01 (Dakai D Chavis).

2.

The DNA profile previously obtained from
sample BHJ1611-8144-E01 is consistent with
a male contributor.
This DNA profile matches the DNA profile
obtained from sample BHJ1701-0383-R01
(Dakai D Chavis).
The probability of randomly selecting an
unrelated individual with this DNA profile at
15 of 15 loci tested is approximately:
1 in 430 quintillion in the US Caucasian
population
1 in 26 quintillion in the US African
American population

App. 56
1 in 450 quintillion in the US Hispanic
population
3.

Sample BHJ1611-8145-E01 was previously
screened for human DNA. The results were
below the limit of detection; therefore, the
sample was not processed further.

See Table 1 for summary of alleles reported for each
sample.
Notes:
1.

Testing performed for this case is in compliance
with accredited procedures under the laboratory’s
ISO/IEC 17025 accreditation issued by ASCLD/
LAB. Refer to certificate and scope of accreditation
for certificate number ALI-231-T.

2.

Any reference to body fluids in evidence descriptions are based on the written descriptions of
the samples by the submitting agency.

3.

The DNA extracts and evidence will be returned
to the submitting agency.

4.

A supplemental report was issued due to a
comparison request by the New Castle County
Police Department. See original reports dated
December 21, 2016 and February 16, 2017.

Report submitted by,
/s/ Sarah Siddons
Sarah Siddons, BS
DNA Analyst II

App. 57
Table 1. Analysis of Short Tandem Repeat Loci
Locus

BHJ16118144-E01a1

BHJ17010383-R01a1
(Dakai D Chavis)

D8S1179

12, 14

12, 14

D21S11

28, 30.2

28, 30.2

D7S820

10, 10

10, 10

CSF1PO

11, 11

11, 11

D3S1358

14, 17

14, 17

TH01

6, 7

6, 7

D13S317

11, 12

11, 12

D16S539

11, 11

11, 11

D2S1338

18, 21

18, 21

D19S433

13, 13

13, 13

vWA

16, 20

16, 20

TPOX

8, 9

8,9

D18S51

{15, 18}

15, 18

Amelogenin

X, Y

X, Y

D5S818

12, 13

12, 13

FGA

{19, 22}

19, 22

{} = Imbalanced Alleles

